<html>
<title> - OPPORTUNITIES TO IMPROVE TRANSPORTATION SAFETY</title>
<body><pre>[Senate Hearing 111-1234]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1234
 
                       OPPORTUNITIES TO IMPROVE 
                         TRANSPORTATION SAFETY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
  
  


       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
       
       
       
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-440PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                        
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 14, 2010
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     4
Udall, Hon. Tom, U.S. Senator from the State of New Mexico, 
  prepared statement.............................................   142
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................   143

                               WITNESSES

Porcari, Hon. John D., Deputy Secretary of Transportation, U.S. 
  Department of Transportation...................................     5
    Prepared statement...........................................     8
    Response to an additional question from Senator Boxer........    16
Steudle, Kirk T., Director, Michigan Department of 
  Transportation, on behalf of the American Association of State 
  Highway and Transportation Officials...........................    20
    Prepared statement...........................................    23
    Responses to additional questions from Senator Boxer.........    34
Dean-Mooney, Laura, National President, Mothers Against Drunk 
  Driving........................................................    36
    Prepared statement...........................................    38
Gillan, Jackie, Vice President, Advocates for Highway and Auto 
  Safety.........................................................    45
    Prepared statement...........................................    47
    Responses to additional questions from Senator Boxer.........    66
Hubsmith, Deb, Director, Safe Routes to School National 
  Partnership....................................................    68
    Prepared statement...........................................    70
    Response to an additional question from Senator Boxer........    78
Cohen, Gregory M., President and CEO, American Highway Users 
  Alliance.......................................................    84
    Prepared statement...........................................    86
    Responses to additional questions from Senator Boxer.........   114
Miller, Ted, Principal Research Scientist, Pacific Institute for 
  Research and Evaluation........................................   119
    Prepared statement...........................................   121


             OPPORTUNITIES TO IMPROVE TRANSPORTATION SAFETY

                              ----------                              


                       WEDNESDAY, APRIL 14, 2010

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the full Committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, and Udall.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The Committee will come to order.
    I want to thank my colleagues and the witnesses for being 
here today for this very important hearing on opportunities to 
improve our transportation safety.
    More people are killed and injured on America's roads than 
on all other transportation modes combined, and motor vehicle 
crashes are a leading cause of death for Americans aged 3 to 
34. That is shocking. Motor vehicle crashes are a leading cause 
of death for Americans aged 3 to 34.
    According to NHTSA an average of 102 people died each day 
in motor vehicle crashes in 2008. That is one in every 14 
minutes. For many years the number of fatalities on our 
Nation's highways has been relatively constant at around 40,000 
a year, although the last 2 years have seen a decline in the 
number of fatalities, for which we are grateful.
    Preliminary projections from NHTSA show that an estimated 
33,000 people died in motor vehicle crashes in 2009, which is a 
9 percent decrease from 2008 when 37,000 people died on 
America's roads. This improvement in the number of fatalities 
represents some progress, but it still means that tens of 
thousands of people continue to die on our roadways every year, 
and we have to do more to make our highways safer.
    In addition to the devastating personal impact every death 
or serious injury has on the victim's families the large number 
of deaths and injuries on our highways each year has 
significant social and economic impacts. In 2000 NHTSA 
estimated that motor vehicle crashes cost the United States 
about $230 billion, taking into account the costs of medical, 
emergency and police services, property damage, lost 
productivity and quality of life.
    And there are new threats to highway safety that need to be 
addressed. For example NHTSA research shows that in 2008 alone 
nearly 6,000 people were killed and more than half a million 
people were injured nationwide in crashes involving a driver 
distracted by a cell phone, a text message or other factors.
    Under Secretary LaHood's leadership the Department of 
Transportation has started a new initiative to combat 
distracted driving, and I look forward to hearing more about 
this initiative from Deputy Secretary Porcari today.
    The next Surface Transportation Authorization, MAP-21, 
which stands for Moving Ahead for Progress in the 21st Century, 
will give us the opportunity to reaffirm our commitment to 
safety and to develop safety programs that maximize the impact 
of limited Federal resources.
    For the last month, the so-called Big Four on this 
Committee have been meeting to get ready for a markup of a 
transportation bill, MAP-21.
    Senator Inhofe. So-called.
    Senator Boxer. Well, we call ourselves the Big Four, but I 
am under 5 feet, so I always mention that.
    I think what is good news is that we have seen tremendous 
cooperation on the safety part of this bill. The staff reports 
to me that there is a lot of agreement to move forward on the 
safety section. So I am very, very happy about this.
    Today's witnesses will discuss a variety of ways to improve 
transportation safety, and we all look forward to hearing your 
suggestions, and we look forward to working with you as we 
develop the safety provisions of MAP-21.
    And absolutely one of the Big Four is sitting here, Senator 
Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    This is something that we have worked on for a long time. I 
don't think there are two people more committed to coming up 
with a transportation reauthorization bill than the two of us. 
And this is about the safety, and we are making good progress 
in reducing both the rate and overall number of fatalities. I 
am sure that was covered in the Chairman's statement.
    Despite what some may think the Committee doesn't have the 
jurisdiction over the driver behavioral side. That said, it is 
important for us to work with States to reduce drunk driving, 
increase seat belt use, and generally encourage safe driving.
    What I oppose is forcing a one size fits all Washington 
solution to all the States. A perfect example of this is the 
sanction approach favored by some on this Committee and some of 
the witnesses who are here today that withholds highway funds 
from States that do not enact specific laws. This goes all the 
way back, Madam Chairman, to when I was first elected to the 
State legislature back in the 1960s.
    You will remember this. Lady Bird's Highway Beautification 
Act of 1965. And I came up here to protest to this Committee. 
What was the guy's name from West Virginia who was the 
Chairman? Well, that was well before you, but anyway. The 
reason I was protesting at that time was they were withholding 
funds that would otherwise go to States. So I go way back 40, 
45 years with this feeling.
    SAFETEA created a new core safety program which I think is 
the single most important thing achieved in the $286.4 billion 
bill that we had from 2005. The next highway bill needs to 
build on this success, and I think this will go a long way to 
continue that. And the reason for the safety program is so 
successful is that it has States look at data of where people 
are dying, accidents are occurring, and come up with a plan to 
address this.
    So I really think that if there is any division up here in 
terms of philosophical division, it is going to be the role of 
the States. I feel very strongly that the closer you get to the 
people, the more they are aware of what the problems are, and 
the things that are problems in terms of safety in California 
are not the same as they are in Oklahoma.
    So I look forward to this hearing, and I appreciate your 
list of witnesses.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    We are making very good progress in reducing both the rate 
and overall number of fatalities on our Nation's roads--but it 
is still not good enough.
    In 2008 just over 37,000 people were killed on our 
highways. I think everybody knows somebody who has been killed 
or severely injured in an auto accident. This is clearly a 
tragedy that touches every American.
    The good news is that highway deaths have been going down 
each year since 2005, when there were 43,500 fatalities. There 
are a number of critical ways to save lives on our roads by 
influencing driver behavior and increasing the safety of our 
roads.
    Despite what some may think this Committee does not have 
jurisdiction over the driver behavior side. However, it is 
important to work with States to reduce drunk driving, increase 
seat belt use, and generally encourage safer driving. What I 
oppose is forcing a one size fits all Washington solution on 
all States. A perfect example of this is the sanction approach 
(favored by some on this Committee and some of the witnesses 
today) that withholds highway funds from States that do not 
enact specific laws. I support rewarding States for results 
(e.g. higher seat belt use, decreases in drunk driving) and 
campaigns like Secretary LaHood's efforts against texting while 
driving.
    This Committee has jurisdiction over the physical condition 
and design of our transportation infrastructure. It is 
estimated that from one-third to over one-half of all 
fatalities result from deficiencies in roadway conditions. We 
need to make our roads and bridges safer. One of the witnesses 
today, Dr. Miller, has conducted research that found roadway 
condition to be a contributing factor in over half of all 
deaths resulting from motor vehicle crashes and 38 percent of 
the non-fatal injuries. His research also determined that in 
terms of crash outcome severity, road conditions are the single 
most lethal contributing factor in roadway fatalities--greater 
than speeding, alcohol, or not wearing seat belts.
    SAFETEA created a new core safety program--which I think is 
the single most important thing achieved in the $286.4 billion 
bill. The next highway bill needs to build on this success. I 
think this will go a long way to continue the historic declines 
in highway deaths.
    The reason the safety program is so successful is that it 
requires States to examine data on where people are dying and 
where accidents are occurring and to devise a plan to address 
the greatest roadway safety problems in the State. It has 
States determine the best solutions to address their most 
unsafe conditions. It is critical that we continue to follow 
this data driven, flexible approach.
    One example of how we deviated from this approach is the 
Safe Routes to School Program. This is not a safety program--it 
is a healthy lifestyle program. Its real goal is to encourage 
kids to walk and bike to school--a worthwhile goal, but let's 
remember: this not a safety issue, and it shouldn't be paid for 
by road users as our infrastructure is crumbling around us. 
This program received over $600 million in the last bill and 
was 14 percent of the size of the entire safety program in 
2009.
    Countless studies have proven the safest way for children 
to get to school is in a yellow school bus. If the goal of this 
program were truly to get our children to school more safely, 
it would be to encourage them to take the school bus. I believe 
we'd save more lives if the Safe Routes to School money was put 
back into the safety program and children were encouraged to 
ride school buses.
    This next highway bill needs to focus on the core safety 
program and build on its successes. I'd like to see a much 
larger, more data driven safety program. I'd also like to 
create a new safety performance measure that will highlight 
successful outcomes and assess how States are doing when it 
comes to saving lives.

    Senator Boxer. Thank you, Senator Inhofe, and I do look 
forward to continuing our work on this and other issues.
    We are so happy to see Senator Lautenberg here. There are 
leaders in the Senate on various issues, and if you had asked 
any Senator, if you asked about safety on our Nation's 
transportation freeways and our highways and our mass transit, 
Frank Lautenberg's name would be at the top of the list.
    I am so glad you are here, Senator. Please proceed.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman, and thank 
you for getting on with the attempt to establish an opportunity 
for a new highway bill. It is critical. One need only be on our 
highways to see how critical it is.
    Well, since I came to the Senate--and I thank you for your 
comments, Madam Chairman--I have fought to make our roads 
safer. In 1984 I authored the legislation that set the minimum 
drinking age at 21. Before that, to drink legally you had to be 
21 in some States and 18 in others. We had a situation in New 
Jersey when our drinking age was 21 and our colleagues, our 
friends across the river, it was 18. And as a consequence, we 
developed a reputation for having a blood border because young 
people would go to New York City and have a good time, and 
often the results at the end of the evening were catastrophic. 
So we changed the law, and the minimum drinking age became 21 
across the Nation.
    The Department of Transportation has determined that this 
law is responsible for saving more than 24,000 lives since it 
was written. It is a stadium full of young people. In 2000 we 
built on that safety record by passing another law to set the 
maximum level of alcohol in a driver's blood at .08, and that 
law has helped further end drink driving, reducing drunk 
driving fatalities, credited with saving approximately 500 
lives every year.
    So I am proud of these accomplishments, but make no 
mistake, there is more work to do. And as we consider different 
ways to protect drivers, passengers, pedestrians, we have to 
remember one thing that has a proven record of reducing 
fatality rates quickly and effectively, and that is shifting 
the behavior, changing the behavior of drivers. In fact 
according to DOT more than 90 percent of crashes on our roads 
are caused by human factors alone, speeding, distracted 
driving, and obviously drunk driving.
    So that is why I introduced a common sense bill a few 
months ago to stop the convicted drunk drivers from becoming 
repeat offenders. This bill will make the highways safer by 
requiring convicted drunk drivers to install ignition 
interlocks on their cars.
    These devices will not let a vehicle start if the driver 
has any alcoholic content on their breath, and these systems 
are proven to work. A study by the Center for Disease Control 
found that re-arrests among convicted drunk drivers dropped by 
73 percent when the ignition interlock was available in their 
car.
    It is also essential that we take the dangers posed by 
massive trucks seriously. Large trucks account for just 3.5 
percent of all the registered vehicles on our roads, and yet 
they are involved in more than 11 percent of all motor vehicle 
crash deaths. The fact is double and triple trailers don't 
belong on our highways. Yet, a loophole in our law allows them 
to endanger the public. We have to close the loophole, block 
these long overweight trucks from using our national highway 
system.
    And finally we cannot ignore the risks posed to motorcycle 
drivers on our roads. In 1995 the law that I wrote, the Federal 
law that required these drivers to wear helmets, was repealed. 
And the rate of deaths among motorcycle riders has skyrocketed 
ever since. Head injury is the leading cause of death in 
motorcycle crashes, and we have to do more to encourage 
motorcycle drivers to wear helmets.
    We have a lot of work ahead of us. I am looking forward, 
Madam Chairman, to hearing from our witnesses on how we can 
make our roads safer and working with your and our colleagues 
on this Committee, we want to accomplish these goals.
    And I thank you.
    Senator Boxer. Thank you, Senator.
    The Honorable John D. Porcari, Deputy Secretary of 
Transportation, we welcome you

    STATEMENT OF HON. JOHN D. PORCARI, DEPUTY SECRETARY OF 
       TRANSPORTATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Porcari. Thank you, Chairman Boxer and Ranking Member 
Inhofe, members of the Committee. Thanks for the opportunity to 
address the Department of Transportation's single highest 
priority, which is safety and safety's role in the next 
reauthorization for surface transportation.
    Improving highway safety throughout the United States by 
reducing road fatalities and injuries is one of our high 
priority performance goals, and I am pleased to report that we 
are making progress on that. In 2008 the number of fatalities 
on our roadways fell to the lowest rate ever recorded. For 2009 
we are on track to do even better as fatalities continue to 
decline.
    This is welcome news, and much of the credit goes to the 
effective intermodal partnerships to improve highway safety 
conducted by DOT's Federal Highway Administration, National 
Highway Traffic Safety Administration, Federal Motor Carrier 
Safety Administration, and our State and local partners. We are 
grateful for their continued leadership.
    I would also like to thank Congress for more than doubling 
the amount of Federal aid funds available for highway safety 
under SAFETEA-LU. This additional funding has been tremendously 
important in helping us to enhance Federal research on traffic 
safety, implement valuable safety programs, and encourage 
innovative, community-based approaches to road safety.
    But there is still much work ahead of us. Too many 
individuals continue to be killed and injured on our highways, 
especially in drunk driving and distracted driving incidents. 
Our Department has set a goal to reduce the rate of highway 
fatalities from the current rate of approximately 1.25 per 100 
million vehicle miles traveled to no more than 1.16 by the end 
of 2011. To achieve that goal we will need a comprehensive 
multi-agency, multi-disciplinary effort coupled with highly 
effective reauthorizing legislation.
    Reauthorization offers many critical opportunities to help 
us refocus our transportation policies so we can continue on 
the path toward making the Nation's transportation system safer 
for everyone.
    Let me share a preliminary overview of some of these 
efforts. One, the DOT Safety Council, which I chair, brings DOT 
senior leadership together from across the Department to 
address high priority, cross-cutting safety topics. This has 
proven to be a very effective vehicle for elevating our focus 
on issues like distracted driving, operator fatigue, and safety 
management systems.
    The Safety Council's first action, by the way, was to 
endorse Secretary LaHood's transit safety reform bill, and I 
would note that this legislation must be enacted now. The 
tragic Metrorail crash that occurred here in Washington last 
June along with accidents and safety lapses on transit systems 
from San Francisco to Chicago to Boston underscores the need 
for new regulations that apply national, consistent safety 
standards to all rail transit agencies. The Federal Transit 
Administration currently lacks the authority needed to set 
these standards, and we need to remedy the situation.
    Two, we are implementing a DOT roadway safety plan that 
will focus on coordinating our roadway safety activities from 
both a strategic and performance perspective to ensure that we 
achieve the desired outcomes. This effort requires sustained 
cooperation and outreach among DOT's modal agencies.
    Three, we are focused on changing drivers' behaviors 
through our highly visible and successful distracted driving 
campaign, which includes efforts to provide incentives to 
States to promote laws curtailing unsafe cell phone use. We 
must sustain the momentum we have developed through consumer 
education, law enforcement, research, and other mechanisms.
    Fourth, we are encompassing pedestrians and bicyclists in 
our safety programs through our Livable Communities initiative, 
which aims to make communities safer while also improving the 
quality of life for families and businesses. This is a 
transformational approach that improves access to a range of 
safe, sustainable transportation options.
    In addition to these priorities, we also have to improve 
our analytical and data collection capabilities and continue to 
refine our existing efforts to improve safety on rural and 
tribal roads and beyond.
    All these efforts help to ensure that DOT's safety agenda 
preserves lives and delivers to the American people the safest, 
most reliable roadways in the Nation.
    Madam Chairman, that concludes my remarks, and I will be 
pleased to take your questions.
    [The prepared statement of Mr. Porcari follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
        
    Senator Boxer. Thank you very much, Mr. Porcari.
    Do you feel you have enough safety data coming from the 
State and local level? And is this something we need to address 
in our bill, getting better data?
    Mr. Porcari. It is an excellent question because although 
the data collection has improved tremendously through SAFETEA-
LU and through some of the mechanisms established in SAFETEA-
LU, there are clearly gaps left. And if we are developing 
performance measures for safety, they should have strong data 
behind them.
    Crash Data Improvement Program work that has a detailed 
analysis of the data is important to make sure that--not just 
on the national highway system, but on all of our roads, 
including our rural roads, which are disproportionately 
represented in accident data--that we have data to build a 
strong program.
    Again, I would emphasize that SAFETEA-LU is a very strong 
start on this.
    Senator Boxer. OK. Would you work with us? Because as we 
try to improve the situation, especially since SAFETEA-LU was 
done, we have more opportunities through computers. I mean, 
they are improved all the time, communications. So clearly we 
need to update that. Would you work with us on this issue?
    Mr. Porcari. Yes, Madam Chair, we would look forward to 
that.
    Senator Boxer. I think it ought to be, supposing 1 day 
Senator Inhofe wanted to know what is happening in his State, 
there should be a click and find out kind of way to do it, it 
seems to me. And I don't think it is an intrusion on the local 
or State people. It is just important for us to know so that we 
can help our States. It may say X number of accidents happened 
at this crossing, and therefore as we do our bill, we want to 
improve that crossing.
    So will you work with us on that section?
    Mr. Porcari. We will, Madam Chair.
    Senator Boxer. We are going to ask you to work with us on 
lots of different sections, but that is one we really care 
about.
    The National Surface Transportation Policy and Revenue 
Study Commission, members of whom have testified before us, 
recommended setting a goal of reducing fatalities by 50 percent 
by 2025. In your opinion, is this an achievable goal? And if 
so, what can we do to help achieve it?
    Mr. Porcari. Madam Chair, it is a very ambitious goal. It 
is a stretch goal. I believe it is important to have a stretch 
goal for safety. As I previously mentioned our high priority 
performance goals, which is one of the primary tools that the 
Office of Management and Budget uses to evaluate departmental 
performance, includes reducing the highway fatality rate.
    We think that into the future as we continue to reduce the 
fatality rate that a stronger, stretch goal makes sense.
    Senator Boxer. OK. In your testimony, you call for the 
development of a DOT roadway safety plan for reducing 
fatalities and injuries. Can you describe what such a plan 
would entail, and would it take congressional action?
    Mr. Porcari. We are currently developing that. What we are 
trying to do is make sure that we break down the modal barriers 
between the individual modes on issues like highway safety. And 
as we build our budget, for example, for fiscal year 2012, we 
are looking at highway safety holistically. NHTSA, the Federal 
Motor Carrier Safety Administration, FHWA, and the Research and 
Innovative Technology Administration, in particular, are 
working across those modal lines and being modally neutral on 
these programs so that we can deploy resources most 
effectively.
    We believe, at least at the present time, that we can do 
that within our existing authority. We may need to make some 
changes going forward, and we would look forward to working 
with you to do that.
    Senator Boxer. Well, thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Secretary Porcari, let me just read from the Highway 
Administration, ``Although 23 percent of the U.S. population 
live in rural areas, in 2007 rural fatalities accounted for 57 
percent of all traffic fatalities in 2007.'' So there is a 
separate $90 million a year Rural Road Program that looks 
solely at rural roads, but it is obviously completely 
inadequate.
    Now, your background was the State of Maryland, and you do, 
obviously, you have rural areas there, as well as very large 
metropolitan areas. It just seems to me coming from a rural 
State that the focus is not really adequately distributed 
between where the problems are. How do you want to address the 
problem that is pointed out in not your statement, in the 
statement of the Administration that a very large percentage of 
those fatalities are from rural areas?
    Mr. Porcari. Clearly, Senator, you have put your finger on 
one of the real gaps in our safety efforts. The strategic 
highway safety plans that individual States develop with our 
partners, including Federal partners, should also be tailored 
to local and individual needs. One of the areas that we all 
need to focus more on is the rural roads. All four of the Es--
engineering, education, enforcement, and emergency medical 
services--apply to that. There are some fundamental data 
collection issues that I believe we need to work together on so 
that we can positively impact that unacceptably high fatality 
rate on rural roads.
    The gaps in data typically are more at the local and rural 
road portions of the system. Knowing where the high accident 
locations are and where the efforts should be focused is an 
important first step.
    Senator Inhofe. Well, I would ask the question, since you 
said they should be tailored. Who is in the best position to 
tailor this? How do you see the States? Because one of the 
debates we are going to have up here is the difference of 
opinion as to the States' role. We go through this quite often. 
Do you think or is it your opinion from the last thing you said 
that some of the States and local communities or entities, 
whatever they are, counties or otherwise, have the accurate 
data to plug into this? What do you see as the States' role in 
this?
    Mr. Porcari. The States have an important role, first in 
formulating the overall strategic highway safety plan because 
it needs to be tailored to meet individual needs. The data 
collection part of it cannot be done by States alone. The local 
partners, in particular where we are talking about rural or 
tribal roads, need to be part of it as well.
    Clearly, one of the gaps that we have is that data 
collection. And if you look at the individual States' strategic 
highway safety plans, many of them specifically identify that 
as a gap that they need to address.
    Senator Inhofe. Well, I know AASHTO has come out in strong 
support of each State settings its own goals and a larger 
percentage of the influence in the new program that we hope 
will be coming out be given to the States. So that is something 
that I would like to have all of us keep in mind as we move 
forward. And I think we are going to be facing the same thing 
when we talk about an overall transportation reauthorization 
bill in areas other than safety, too.
    Thank you very much, Mr. Secretary and Madam Chairman.
    Senator Boxer. Thank you.
    Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Madam Chairman.
    Thank you, Secretary Porcari, for your testimony and your 
good work on behalf of safety on our roads.
    Despite the fact that large trucks take longer to stop, 
have a higher rate of rollovers, pose tremendous wear and tear 
on our crumbling transportation infrastructure, some are 
proposing relaxing the ban on large trucks that weigh more than 
80,000 pounds and are longer than 53 feet on our interstate 
highway system.
    What might be the impact of more large trucks on the 
highways on fatalities?
    Mr. Porcari. Senator, the current truck size and weight 
requirements that the Federal Highway Administration 
administers reflect that balance that we need between safety, 
infrastructure preservation, and truck productivity that 
Congress decided was appropriate. Safety should be the 
overriding consideration as always in this.
    We look forward to working with Congress to make sure that 
an appropriate balance of those three factors is maintained. 
The very real issues associated with weight and size of 
vehicles are something that we are very focused on, and we want 
to make sure we maintain that appropriate balance.
    Senator Lautenberg. Well, I would appreciate a very close 
examination of that because the statistics tell us that there 
is danger ahead if we increase the use of these larger trucks 
on our highways.
    A proven method to reduce drunk driving is through the use 
of ignition interlock devices. Studies that I mentioned have 
found that re-arrest rates decrease by 73 percent. Fatalities 
drop by 30 percent for convicted drunk drivers with ignition 
interlocks.
    Therefore, do you think that higher employment of these 
devices might be beneficial to reduce the fatalities that 
result from drunk driving?
    Mr. Porcari. Senator, we agree that ignition interlocks can 
play a larger role than they do now in reducing drunk driving. 
As you point out, it is clear from the data that they work and 
that they are highly effective. There are 12 States at this 
point that have enacted laws requiring ignition interlocks by 
all drunk driving offenders, and we look forward to continuing 
to research this issue as well, whether it is ignition 
interlock or any other technological means that helps reduce 
the rate of drunk driving.
    Senator Lautenberg. Is it likely that the use of these 
devices would assist in that endeavor?
    Mr. Porcari. I think it is clear from the data, Senator, 
that increased use of the devices has clearly resulted in a 
safety benefit.
    Senator Lautenberg. By the way, to my friend and colleague, 
Senator Inhofe, Jennings Randolph.
    [Laughter.]
    Senator Inhofe. Yes. I remember that well.
    Senator Lautenberg. Yes, I remember it myself.
    I wrote the helmets required law for motorcyclists in 1991. 
The law was repealed in 1995. Motorcycle fatalities skyrocketed 
since that time. If we are to have real gains in motorcycle 
safety, isn't it time to reinstate the law that requires 
helmets to be worn by all motorcycle operators and passengers?
    Mr. Porcari. Senator, at the risk of stating the obvious, 
motorcycle helmet use is the single most effective way to 
reduce motorcycle fatalities. We strongly support motorcycle 
helmet laws because they do work. And our NHTSA data has shown 
that using helmets is 37 percent effective in preventing fatal 
injuries to riders and 41 percent effective for passengers. 
Those are clearly big safety gains, and again it is the single 
most effective thing that any motorcycle rider or passenger can 
do.
    Senator Lautenberg. Thank you very much, Mr. Porcari.
    And thank you, Madam Chairman.
    Senator Boxer. Thank you so much.
    And would you stand by, not here personally, but would you 
be willing to answer some questions that we didn't get to ask 
you, in writing?
    Mr. Porcari. Madam Chair, I would be happy to.
    Senator Boxer. Excellent.
    Well, we thank you so much, and now we call up our second 
panel: Mr. Steudle, Laura Dean-Mooney, Jackie Gillan, Deb 
Hubsmith, Gregory Cohen, Ted Miller. And then as we go, I will 
give your formal titles as I call on you, but we thank you all 
for being here very, very much. We look forward to hearing from 
you.
    Mr. Steudle, we will start with you. You are the Director 
of the Michigan Department of Transportation. So, welcome.

STATEMENT OF KIRK T. STEUDLE, DIRECTOR, MICHIGAN DEPARTMENT OF 
TRANSPORTATION, ON BEHALF OF THE AMERICAN ASSOCIATION OF STATE 
              HIGHWAY AND TRANSPORTATION OFFICIALS

    Mr. Steudle. Good morning, Chairwoman Boxer and Minority 
Member Inhofe and Senator Lautenberg.
    I am Kirk Steudle. I am the Director of the Michigan 
Department of Transportation, and I am Chairman of AASHTO 
Standing Committee on Highway Traffic Safety. I am also Chair 
of the SHRP II Program, which is the second generation of the 
Strategic Highway Research Program. And my verbal comments 
today are just taken pieces of my written statement that has 
been submitted for the record.
    There is no more important topic than highway safety. As 
has been noted in the first panel SAFETEA-LU made significant 
strides in enhancing America's focus on safety. It increased 
funding for safety, created a new and core safety program, and 
required all States to develop a strategic highway safety plan.
    In May 2007 the AASHTO Board of Directors adopted a 
national goal of halving traffic deaths over two decades. That 
would translate into saving 1,000 American lives per year over 
the next 20-year period.
    This year, Michigan will spend nearly $70 million on safety 
on our roadways, targeting signal improvements, signing 
improvements, pavement markings, modernizing signalized 
intersections, cable barriers, rumble strips, intelligent 
transportation systems, and safe routes to school. These kind 
of consistent expenditures have helped us to reduce our highway 
fatalities on Michigan roads to 871 in 2009, the lowest since 
1924. Our seat belt usage is at 97.9 percent. That, along with 
our long history of collaboration, has led to this two decade 
decline in traffic fatalities.
    Nationwide 33,963 Americans perished in traffic collisions 
in 2009, a drop of 9 percent from 2008. While that is excellent 
news, we need to continue our progress in reducing highway 
fatalities. AASHTO stands ready to work with you toward this 
effort.
    To that end AASHTO recommends a series of bold 
congressional actions. Let me stress the key eight 
recommendations briefly.
    No. 1, Congress should adopt a national goal of halving 
traffic deaths over two decades. We would also like to see for 
you to call for and fund a national summit on highway safety.
    Second, Congress should increase the flexibility and level 
of funding for all safety programs and then continue to fund 
the High Risk Rural Roads Program and update the Safe Routes to 
School Program to further focus on pedestrians.
    Third, Congress should continue the requirement that States 
develop and implement strategic highway safety plans and 
require that they be updated at least once during the 6-year 
reauthorization cycle. And further, Congress should establish 
an aggressive State-determined fatality reduction goal to help 
achieve the national goal.
    Fourth, Congress should provide $20 million per year to 
enhance NHTSA's State data system. This will enable further 
development of the system to include traffic and roadway 
characteristics as well as injury outcomes. Good data is the 
foundation for determining how and where money and efforts need 
to be spent.
    Fifth, Congress should support a national effort led by 
NHTSA to develop and recommend model laws and best practices to 
the States to drive down traffic deaths, including rigorous 
enforcement and adjudication of those laws.
    Sixth, Congress should encourage more expeditious 
deployment of technical safety improvements in vehicles through 
Federal incentives and regulatory and research and development 
incentives, much like the electronic stability control that is 
being used in vehicles.
    Seven, Congress should increase funding for safety research 
development and technology, and expand the coordination among 
research entities. Congress should increase funding for 
intelligent transportation systems, the IntelliDrive Program, 
Federal Highway, NHTSA and FMCSA's safety research, and also 
the SHRP II Program.
    And the last one, Congress should provide $5 million to 
modernize the commercial driver's license information system 
needed to fully implement one drive/one record. In addition $14 
million is needed for the Department of Homeland Security for 
the National Driver Registry.
    In conclusion, Madam Chairwoman, safety is not just a catch 
phrase or a feel good word. The number of fatalities is not 
just data or rate to compare over years. Safety on our 
transportation systems means that we go home to our families 
every night.
    We can push last year's 34,000 deaths lower and lower in 
future years with a focus and intensity to bring more people 
home every night.
    Let me assure you that AASHTO is a strong safety advocate, 
and we are eager to be part of the solution, and we stand ready 
to assist you in your legislative deliberations as you craft 
the next reauthorization bill.
    [The prepared statement of Mr. Steudle follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. Thank you very much.
    We will move on to Laura Dean-Mooney, National President of 
Mothers Against Drunk Driving.

  STATEMENT OF LAURA DEAN-MOONEY, NATIONAL PRESIDENT, MOTHERS 
                     AGAINST DRUNK DRIVING

    Ms. Dean-Mooney. Thank you, Chairman Boxer and Ranking 
Member Inhofe, for the opportunity to testify before your 
Committee. Your leadership and the leadership of this Committee 
are to be commended as we work to eliminate drunk driving in 
our Nation.
    This year marks the 30th anniversary of Mothers Against 
Drunk Driving. And since our founding in 1980 drunk driving 
fatalities have dropped by over 40 percent. The public is now 
well aware of the human consequences of drinking and driving 
because MADD has shared stories like mine with the Nation.
    I became involved with MADD after my husband, Mike Dean, 
was killed on November 21, 1991, by a drunk driver. At 7:15 
p.m. on a Thursday evening a drunk driver with a .34 blood 
alcohol concentration, going the wrong way on a Texas highway, 
met Mike's car head-on, killing him instantly and making me 
both a grieving widow and a single mom, as well as making his 
mom childless.
    Much of the progress in the fight against drunk driving was 
achieved by the mid-1990s. For the past 15 years we have been 
able to maintain that progress, but until recently make no 
further reductions in reducing fatalities from DWI crashes.
    In 2008 11,773 real Americans were killed in DUI related 
crashes, equaling 32 percent of all traffic fatalities. A 
statistic collected by NHTSA from the States themselves paints 
a startling portrait of what is happening on our roads. Madam 
Chairman, Californians share the road with 310,971 motorists 
with three or more DUI convictions and 44,210 with five or more 
DUI convictions. Data from every State shows that we are still 
not doing enough to stop drunk driving.
    In 2006 MADD sought to reverse the deadly trends on our 
roads by launching the Campaign to Eliminate Drunk Driving. The 
Campaign consists of four parts: support for law enforcement, 
including sobriety checkpoints and saturation patrols; 
requiring all convicted drunk drivers to use an ignition 
interlock device; exploration of advanced vehicle technology 
set at .08 which will prohibit the impaired driver from driving 
their vehicle; and finally grassroots support for this 
initiative.
    The simple reason that drunk drivers continue to drink and 
drive is because they can. The reality, too, is that unless you 
live in an area with accessible mass transit options you need a 
car to get to work and other destinations. This all adds up to 
the fact that 75 percent of people with a suspended driver's 
license continue to drive illegally.
    The alcohol ignition interlock allows a DUI offender to 
continue to drive wherever they need to go. He or she just 
can't drive drunk and hurt your family or mine. As Senator 
Lautenberg mentioned, the research on ignition interlocks is 
crystal clear and irrefutable. The CDC in 15 published studies 
proved that interlocks are effective in protecting the public.
    Beyond the research we have fatality data for New Mexico 
and Arizona showing an over 30 percent reduction in DUI 
fatalities following the passage of all-offender interlock 
laws. Today, thanks in part to MADD's Campaign, 10 States 
require all DUI offenders to use an ignition interlock device. 
Two States highly incentivize DUI offenders to use an 
interlock, and California passed a major pilot program 
requiring all convicted DUI offenders in four counties, with a 
total population of 14 million people, to use an ignition 
interlock. Every American should be protected under an all-
offender interlock law, which is why MADD is calling for 
Federal highway fund sanctions on States which do not require 
interlocks for all convicted offenders.
    This is the same approach that Congress took toward the 21 
minimum drinking age in the 2008 .08 per se BAC law.
    MADD has worked hard at the State level to pass interlock 
laws, but our efforts have stalled due to the special interest 
of DUI defense attorneys and the alcohol industry putting the 
lives of our families in danger. Quite frankly, we need this 
Committee's help.
    All across the country there are examples of industry 
opposition. As just one example, a proposed interlock law that 
passed the Maryland Senate but was held up in the House of 
Delegates by the Chairman of the Judiciary Committee, who is a 
well known DUI defense attorney, was just killed in Maryland--
the bill, that is. The Chairman refused to even hold a vote on 
this life saving legislation even though it is likely that the 
votes were there for passage. The resistance was so bad that 
both the Washington Post and the Baltimore Sun editorial boards 
took issue with the Chairman.
    We urge this Committee to include the same highway fund 
sanctions that both Chairman Oberstar and Ranking Member Mica 
have included in the Surface Transportation Act in the House. 
Senators Lautenberg and Udall have introduced legislation which 
mirrors the Oberstar-Mica language, pushing States to require 
all drunk driving offenders to use an interlock for at least 6 
months, potentially saving 4,000 lives.
    I want to thank you, too, Chairman, for your referencing 
advanced technology efforts as the Manhattan Project for drunk 
driving in a hearing in this Committee in October 2007. The 
Driver Alcohol Detection System for Safety, or DADSS, is a 
project to research the possibility of creating a passive and 
unobtrusive technology which could measure the driver's BAC and 
render the vehicle inoperable if the BAC is above .08 or 
greater.
    Senators Udall and Corker have introduced the ROADS SAFE 
Act to provide $12 million per year for this project, and I 
would ask you, Madam Chairman, and all members of this 
Committee to please cosponsor this legislation.
    To conclude, I thank you again, Madam Chairman and Ranking 
Member Inhofe, for your leadership on this issue. Please 
include ignition interlock sanctions in your bill, and please 
support the ROADS SAFE Act. With the help of this Committee we 
can make drunk driving the public health equivalent of polio.
    Thank you.
    [The prepared statement of Ms. Dean-Mooney follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Senator Boxer. Thank you so much, just for your courage and 
turning your life into something so positive.
    How old was your husband when he was killed?
    Ms. Dean-Mooney. He was 32 years young. I did bring a 
picture, and our daughter is in this picture with him. She was 
8 months old at the time that her dad was killed.
    Senator Boxer. Thank you for bringing that.
    Jackie Gillan, Vice President, Advocates for Highway and 
Auto Safety.

   STATEMENT OF JACKIE GILLAN, VICE PRESIDENT, ADVOCATES FOR 
                    HIGHWAY AND AUTO SAFETY

    Ms. Gillan. Thank you, and good morning, Madam Chair. I 
appreciate the opportunity to testify this morning.
    This year, Advocates for Highway and Auto Safety is 
celebrating our 20th anniversary. As we have done in the past 
two decades we want to ensure that the MAP -21 bill enacted by 
the Senate this year has a strong safety component.
    Although as a Nation we have made progress in driving down 
the annual fatality rate there is still a major unfinished 
highway safety agenda. Recent declines in highway deaths these 
past 2 years are almost certainly related to the economic 
downturn, high gas prices, and a decrease in discretionary 
driving. A chart that I attached to my statement shows that 
declines in highway deaths in the past 40 years have been 
temporary and always coincide with economic recessions.
    I do want to add that Advocates supports all of the goals 
to cut highway deaths that are being proposed by witnesses, 
``stretch'' or otherwise. And there are actions that this 
Committee can take that will achieve those goals. And there are 
tremendous opportunities for safety. We just need the political 
will to do it.
    Without adoption of safety provisions that I am going to 
outline in my testimony, in the next 5 years we will likely see 
another 180,000 people needlessly dying on our highways and 
more than 10 million injuries at a staggering and numbing human 
and economic cost. We can't let this happen, and we don't have 
to let this happen.
    One of the most significant obstacles in reducing highway 
deaths and injuries is the lack of uniform traffic safety laws 
among States. Attached to my statement are several maps showing 
that too many States lack some of the most fundamental traffic 
safety laws. This is where Federal leadership is absolutely 
crucial. In the past 20 years when Congress reinforced the need 
for States to pass lifesaving laws by invoking sanctions, 
States acted. This was the case in the 21 drinking age, minimum 
standards for licensing commercial drivers, a zero tolerance 
law for underage drinking and driving, and the .08 BAC law.
    I also want to draw your attention to the fact that every 
single time Congress used a sanction every State adopted the 
law. Not a single State lost a single dollar of Federal highway 
funds, and the result was that thousands of lives have been 
saved.
    It is now time for Congress to use this approach to 
encourage State action on several essential laws. First, every 
State needs a strong and comprehensive teen driving law. Motor 
vehicle crashes remain the leading cause of death for our teens 
in every single State, and since 2003 more than 50,000 deaths 
have occurred in crashes involving young drivers.
    We have a patchwork quilt of teen driving laws across the 
country that jeopardize the safety of our children. This is 
another example of the so-called blood borders where teens in 
some States are better protected than in others. Advocates 
supports legislation that has been introduced in the House, the 
Safe Teen and Novice Driver Uniform Protection Act, or STANDUP 
Act, which sets minimum standards for State teen driving laws. 
And we look forward to a Senate companion bill as well. These 
are NTSB recommendations, recommendations by the American 
Academy of Pediatrics, and the result of extensive research and 
studies.
    Every State also needs a primary enforcement seat belt law. 
Last year more than half of those that were killed in crashes 
were unbelted. In SAFETEA-LU, Congress provided $500 million in 
incentive grants to get the States to adopt primary laws. Only 
8 acted, leaving 21 States today that still need that law.
    We also need every State to have an ignition interlock law 
to curb drunk driving, and Advocates strongly supports the 
efforts of MADD to get a sanction in the bill to require that 
every State has this important law, especially for first time 
offenders to keep them from getting behind the wheel. This law 
does not prevent people from driving. It just prevents them 
from driving drunk.
    We also need a ban on texting. Another source of 
distraction is taking your hands off the wheel, your eyes off 
the road, and your mind off the task of driving. We support 
legislation introduced by Senator Schumer and by Senator 
Rockefeller to address this issue.
    Every State also needs an all rider motorcycle helmet law. 
Deaths have been skyrocketing because of the fact that so few 
States have all rider motorcycle helmet laws. In fact in 
California when they reinstated their law in 1992 they had a 40 
percent drop in Medicaid costs for injured motorcyclists. More 
States introduced laws to repeal all rider motorcycle helmet 
laws last year than to impose them.
    And finally, we need to stop the increase in truck size and 
weights. We have lost 50,000 people in large truck crashes in 
the last 10 years. Oversized, overweight trucks are dangerous 
and destructive. The public doesn't want them, and they have 
good reason because so many people are killed by trucks, and it 
is a very serious problem. In 1991 Congress passed a freeze on 
large double and triple trailer trucks, and we think the same 
thing needs to be done because trucking interests are lobbying 
mightily to increase truck weights now, set up pilot programs, 
and get special weight exemptions.
    Let me just finish by saying that the transportation 
solutions to promote mobility in our economy involve not only 
financial investments, but we need safety investments as well. 
Nearly all of the safety proposals that I have outlined in my 
testimony today can be realized by expending minimal Federal 
dollars while achieving maximum gains in saving lives. We can 
do it. We should do it. We need to do it. And we look forward 
to working with this Committee.
    [The prepared statement of Ms. Gillan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. Thank you so much.
    Our next speaker is Deb Hubsmith, Director of Safe Routes 
to School National Partnership. Welcome.

  STATEMENT OF DEB HUBSMITH, DIRECTOR, SAFE ROUTES TO SCHOOL 
                      NATIONAL PARTNERSHIP

    Ms. Hubsmith. Good morning. Thank you, Chairman Boxer. I am 
honored to have the opportunity to present today to discuss 
improving transportation safety. I serve as Director of the 
Safe Routes to School National Partnership, a network of nearly 
500 organizations.
    Currently, 12 percent of trips in the United States are 
already made by walking and bicycling, and the use of these 
modes of transportation is on the rise. For many Americans 
walking and bicycling is a necessity as one-third of Americans 
don't own cars. Americans want more transportation options. In 
a recent poll conducted by Transportation for America a 
majority of voters said that they would like to spend less time 
in their cars, but 73 percent said that they had no other 
choice but to drive.
    Unfortunately a major factor limiting the number of people 
who can walk and bicycle is safety, and Americans have good 
reason to be concerned. According to the most recent data from 
the National Highway Traffic Safety Administration more than 
5,000 pedestrians and bicyclists were killed on U.S. roads in 
2008, and more than 120,000 were injured. This includes 650 
children who were killed. This is the equivalent of a jumbo jet 
going down roughly every month, yet it receives nothing like 
the kind of attention that would surely follow such a disaster. 
In fact on a per mile basis walking in unsafe conditions is 10 
times as dangerous as driving.
    Here is just one example of the type of tragedies that are 
taking place all across America. In December 2009 three girls, 
aged 12, 14 and 16, were killed trying to cross a street in 
their neighborhood in Terrell, Texas. An editorial in the 
Dallas Morning News cited extremely high speeds, a lack of 
pedestrian infrastructure, and the design of roads that caters 
solely to cars as major contributing factors in the girls' 
deaths.
    Pedestrian and bicycle safety issues are not limited to 
urban and suburban areas. In fact while 23 percent of the 
population lives in rural areas 28 percent of pedestrian 
fatalities occur in rural areas.
    The problem is rooted in how we allocate transportation 
dollars. Nationwide just 1.2 percent of funds authorized under 
the Federal transportation law, SAFETEA-LU, have been allocated 
to walking and bicycling projects even though pedestrians and 
bicyclists represent 13 percent of traffic deaths and 12 
percent of total trips.
    When we look at the allocation of Federal safety dollars 
bicyclists and pedestrians fare even worse, with only 0.6 
percent of Federal safety funds going to support these modes.
    Even if someone chooses to drive for all or most of their 
trips they eventually have to cross a street or walk down a 
street, and they are exposed to traffic dangers, too. A lack of 
pedestrian safety in America affects all of us.
    Fortunately solutions exist, and there is great opportunity 
to increase walking and bicycling where 40 percent of trips in 
America are 2 miles or less in length. For example Safe Routes 
to School efforts which are taking place in all 50 States have 
been successful at improving safety. In Miami-Dade County, 
Florida, all school children are taught pedestrian safety 
through the WalkSafe Program. Since its launch in 2001 there 
has been a 43 percent decrease in the total number of children 
aged 0 to 14 hit by cars.
    Infrastructure solutions can make a big difference, too. 
For example the presence of sidewalks reduces in half the risk 
that a pedestrian will be struck by a vehicle.
    The Safe Routes to School National Partnership recommends 
that the Committee include the following five recommendations 
in your transportation bill. First, please support Senate Bill 
1156, the bipartisan Safe Routes to School Program 
Reauthorization Act. Please support increased funding for 
transportation enhancements and funding for active 
transportation networks. States should also be required to 
allocate a greater share of their transportation dollars to 
reduce disparities and inequities for all modes of 
transportation.
    Second, we recommend that the Committee include the 
provisions in Senate Bill 584, the Complete Streets Act, in 
your transportation bill. We support a ``fix it for all'' 
policy when repairing and retrofitting infrastructure so that 
our roads serve motorists, bicyclists, pedestrians and people 
using public transit.
    Third, we encourage the Committee to include mode specific 
and geographic specific benchmarks for transportation safety in 
the next bill.
    Fourth, we encourage the Committee to include additional 
funding for pedestrian and bicycle research and to require 
State DOTs to collect data on bicycle and pedestrian safety.
    Fifth, we encourage the Committee to require the USDOT to 
codify best practices for bicycle and pedestrian design 
innovations in the Manual on Uniform Traffic Control Devices.
    In conclusion, an important indicator of a livable safe 
community is whether our children can safely walk or bicycle to 
schools. While it is currently unnecessarily dangerous for 
pedestrians to walk health experts are making the case that it 
could be just as deadly not to walk or bicycle. Active 
transportation is critical to increasing levels of healthy 
physical activity and reducing obesity and heart disease.
    I look forward to working with the Senate Environment and 
Public Works Committee to develop a transportation agenda that 
will create a safe and healthy America.
    Thank you.
    [The prepared statement of Ms. Hubsmith follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Senator Boxer. Thank you very much.
    Our next speaker is Gregory Cohen, President and CEO, 
American Highway Users Alliance. Welcome.

  STATEMENT OF GREGORY M. COHEN, PRESIDENT AND CEO, AMERICAN 
                     HIGHWAY USERS ALLIANCE

    Mr. Cohen. Thank you, Madam Chairman.
    Most highway deaths are preventable. For example, today's 
road safety devices can prevent almost any vehicle from running 
off the road. These road departure crashes account for the 
majority of fatal crashes nationwide. But when funding is not 
available for needed safety improvements there are real human 
victims. We believe that MAP-21 should include both a major 
increase in highway funding levels as well as a well funded 
improved safety core program within the highway title.
    Highway deaths and injuries are a national epidemic that 
requires Federal leadership to address. We recommend that 
Congress approach highway safety by addressing the four Es, to 
which we add an important I. The Es are engineering, education, 
enforcement and EMS. The I stands for investment.
    We can't forget the I because little national progress can 
be realized with the four Es unless there is strong Federal 
financial support.
    Before SAFETEA-LU was enacted fatalities were slowly 
rising, but since then they have dropped 22 percent. We believe 
these results came at least in substantial part from 
legislation authorized by this Committee. However, there is 
still immense work that really needs to be done to move America 
toward zero deaths.
    Under SAFETEA-LU, Congress created the new safety core 
program known as HSIP. We consider this to be the defining 
achievement of that bill. HSIP required States to develop 
strategic highway safety plans to direct investments, but it 
has become obvious that HSIP can be improved. Congress can help 
States become more proactive by clarifying that location 
specific crash data can be used to support systemic safety 
investments.
    SAFETEA-LU also included dedicated funding for road safety 
education pilot programs. The Roadway Safety Foundation, a 
charitable educational organization that we chartered, is 
implementing this program under an agreement with Federal 
Highways. RSF pilot programs have focused on deploying 
lifesaving, low cost cable median barriers, rumble strips, and 
other ways to make roads safer for seniors as well.
    Coming programs will include new awareness of State route 
mapping, techniques to improve tribal road safety and winter 
road safety. We strongly support reauthorizing the Road Safety 
Educational Program and urge an increase in dedicated funding 
for it.
    Additional authorization recommendations from the Highway 
Users, including safety priorities, have been attached to our 
written testimony. Highlights include dedicating 10 percent of 
all Federal aid highway funds for road safety projects, 
providing FHWA safety programs with a special obligation, and 
creating a more robust performance based HSIP Program that 
helps States meet their proportional share of a national 
fatality reduction target.
    Highway Users has also reviewed several safety related 
bills drafted or introduced by Members of the 111th Congress. 
We ask that you advance them to enactment. The first is the 
Surface Transportation Safety Act of 2009, S. 791, which would 
improve work zone safety standards, stimulate product 
innovation by allowing State DOTs to use the latest advanced 
proprietary safety products, and speed adoption of new minimum 
retro reflectivity levels for pavement markings, among other 
features.
    Next is the High Risk Rural Road Safety Act, draft 
legislation that we, along with other members of the Rural 
Infrastructure Safety Coalition, support. It would authorize $1 
billion per year for the High Risk Rural Roads Program and also 
help local governments address their safety problems. Although 
23 percent live in rural areas, they account for 55 percent--
the majority--of traffic deaths.
    And finally, the Older Driver and Pedestrian Safety and 
Roadway Enhancement Act, H.R. 3355, which we, along with other 
members of the Coalition for Older Roadway User Safety, CORUS, 
support. It would fund a roadway safety program targeted to 
older drivers and pedestrians. This bill will help States 
prepare for the coming demographic shift by improving signs, 
markings, intersections and crosswalks.
    Last year the House draft authorization bill also included 
a series of sanctions. The Highway Users generally supports 
incentives and opposes sanctions. However, there is no doubt 
that increasing seat belt use and reducing DUIs are essential 
to saving lives. More than half of those killed in car crashes 
are not wearing seat belts, and alcohol is a factor in one-
third of fatalities. We would like to work with the Committee 
to help ensure that all States enact primary seat belt 
enforcement and ignition interlock laws for repeat DUI 
offenders. But we also want to ensure that funding for highway 
safety projects is increased or held harmless under any 
incentive or sanction plan.
    In conclusion, this Committee has an extraordinary 
opportunity to help save tens of thousands of lives by 
expeditiously authorizing a well funded MAP-21 with a forward 
thinking robust safety program. It is essential that the Nation 
make the same kind of progress in improving the safety 
environment of our roads and roadsides that we have made in 
improving our vehicles. This will require determined effort.
    In most cases we have better drivers and better vehicles, 
but they are using the same old, inadequate roads, many with 
hairpin turns, inadequate signs and markings, aging bridge 
rails, narrow lanes, inadequate shoulders, and nonexistent 
roadside protection. More investment is needed.
    The American Highway Users Alliance greatly appreciates 
being your partner in this effort.
    [The prepared statement of Mr. Cohen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. Thank you. I found your testimony very, very 
compelling.
    I also want to say everyone thus far, I just really want to 
say thank you for it.
    And yes, we are looking forward to hearing from Mr. Miller 
as well, Principal Research Scientist, Pacific Institute for 
Research and Evaluation.

STATEMENT OF TED MILLER, PRINCIPAL RESEARCH SCIENTIST, PACIFIC 
             INSTITUTE FOR RESEARCH AND EVALUATION

    Mr. Miller. Thank you.
    I am a Ph.D. economist with more than 25 years of 
experience analyzing road crash costs. I work for the Pacific 
Institute for Research and Evaluation, a nonpartisan, nonprofit 
organization focused on preventive health. Since 1977 our work 
primarily has been funded by Federal contracts and grants.
    Dr. William Haddon was the first Administrator of NHTSA. 
One of his legacies was the concept that three factors--the 
driver, the vehicle, the road--play critical roles in causing 
crashes and determining crash outcomes. Each is important, and 
most experts agree that safety programs should focus on a 
combination of driver behavior, law enforcement, vehicle design 
and roadway design and condition.
    I recently studied crashes, injuries and deaths that 
deficient road conditions cause. For example a sharp curve 
might cause a crash, or an unforgiving pole at the side of the 
road might turn that crash into a killer. Deficient road 
conditions contribute to more than half of all roadway deaths. 
They cause 10 crashes a minute or make them worse.
    Crashes associated with road deficiencies cost $217 billion 
annually. That is more than $1,000 per licensed driver. They 
cost American businesses $22 billion; governments, $12 billion; 
the health care systems, $20 billion.
    The driving environment is very forgiving. Drivers often 
make minor errors. They also speed. They get distracted. They 
drive drowsy. They take one drink too many. When the roadway is 
deficient those errors are more likely to cause a crash, and 
crashes that occur are more likely to result in serious injury 
or death.
    Although behavioral factors are involved in most crashes 
avoiding those crashes through driver improvement and 
enforcement alone requires reaching millions of individuals and 
getting them to sustain best safety practices. Drivers will 
never be perfect, so driver interventions work best when we 
also make the roadway environment more forgiving and 
protective. It is a partnership.
    Moreover, the costs of crashes involving deficient roadway 
conditions dwarf the cost of crashes involving alcohol, 
speeding or failure to wear a safety belt. Focusing as much on 
improving road safety conditions as on reducing impaired 
driving would save thousands of lives and billions of dollars 
each year.
    So the next surface transportation bill needs to marry a 
sanction based stress on driver improvement with a powerful 
push to improve the safety built into the road system. Safer 
drivers and safer cars remain vitally important, but also it is 
critical to make roads, bridges and shoulders safer. It has 
been too long since we paid strong attention to that aspect of 
driving safety.
    The immediate solution for problem spots include using 
brighter, more durable pavement markings, adding rumble strips 
to shoulders, mounting more guard rails and safety barriers, 
and installing traffic signals, enforcement cameras and better 
signs with easier to read legends.
    More significant road improvements include replacing non-
forgiving poles with breakaway poles, adding or widening 
shoulders, improving roadway alignment, replacing or widening 
narrow bridges, reducing pavement edges and abrupt drop offs, 
and clearing more space on the roadside.
    Our report On a Crash Course estimates crash costs per 
vehicle mile traveled by State. The highest costs are in Hawaii 
and the southeastern and south central United States followed 
by the northwest interior. The lowest costs are in the upper 
Midwest and along the Eastern Seaboard from Maryland north.
    One reason for regional variations is the time period when 
the roads were built. Southern roads that originated in horse 
and buggy days were lined with trees for shade. Now those trees 
are killers. Similarly buggies were slow and narrow, so bridges 
built a century ago tend to be problematic. In contrast much of 
the Midwest was paved in the motor era.
    Before closing let me add a message to the drivers in this 
room. The next time you drive to an event, if you get off the 
interstate on an unfamiliar road, look around. You know how to 
recognize a deficient road. Are the lanes narrow? Are there bad 
curves and cluttered shoulders? If so, you need to become a 
better driver. The road can't forgive or protect you.
    Our roadways and bridges could be a lot safer. Focusing as 
much on improving road safety conditions as we focus on 
reducing impaired driving or belt non-use could save thousands 
of additional lives and billions of dollars each year.
    I have a few seconds left. I am going to add one other 
comment, which is that the last I looked, the entire Federal 
Highway Administration research budget for road safety was 
earmarked. There was nothing for the Federal professionals to 
decide what to research. We need to change that.
    Thank you.
    [The prepared statement of Mr. Miller follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
        
    Senator Boxer. The testimony was excellent.
    There are so many questions I have, so I may ask you to 
write back to me, if you would all be willing to do that.
    But I want to start with you, Mr. Cohen, because you said--
I mean, you have an organization that we all respect, the 
American Highway Users Alliance. And by the way a lot of you 
helped us get that highway bill done through the end of the 
year. You helped Senator Inhofe and myself, and I just want to 
say thank you for that.
    You said that your organization in general doesn't like 
sanctions, that you prefer incentives to sanctions. And it is 
something that I think several people in this Committee take 
different sides on. But you mentioned two areas where you 
sounded like you were willing to work with us to move forward 
on sanctions as long as it didn't take away funds from other 
things. And one of those was seat belts, mandatory seat belt 
enforcement of those laws in the States. And the other one I 
think you said was repeat drunk drivers, that you felt that 
those were areas that stood out. And could you tell us why? 
What is the connection? If you could put on the record so the 
repeat drunk driver fatalities, what is that number? And also 
the failure to enforce seat belt laws.
    Mr. Cohen. Sure. Well, drunk drivers represent one-third of 
fatal crashes. I have been unable to find how many repeat drunk 
driver fatalities there were in 2009. However according to 
NHTSA, about one-third of all DWI arrests are repeat offenders.
    Senator Boxer. OK. Well, maybe Laura Dean-Mooney might know 
that, so we will get to you in a minute.
    Mr. Cohen. And seat belts are not being worn by 55 percent 
of the people who are killed. Eighty-five percent of people 
wear seat belts now, but 55 percent of those killed don't.
    Senator Boxer. Is that right?
    Mr. Cohen. What I would like to offer, we have a long 
tradition of opposing sanctions.
    Senator Boxer. Yes.
    Mr. Cohen. You are right. I would like to work with the 
Committee. We would like to offer perhaps a bridging proposal, 
to make sure that under any kind of incentive plan or sanction 
plan, whichever way the Committee chooses to go, that the State 
safety money, particularly the safety core programs, receive 
incentive funding or are just held harmless. And that was a 
compromise that was reached on TEA-21 as well.
    So we are wary of telling States which laws to pass, but 
there is a way to get to a compromise.
    Senator Boxer. On these two areas, you are willing to work 
with us?
    Mr. Cohen. Absolutely.
    Senator Boxer. OK.
    It just seems to me--Ms. Mooney lost her husband when he 
was 32 years old. And what year was that?
    Ms. Dean-Mooney. 1991.
    Senator Boxer. She lost her life partner, and the child 
lost a dad. So it seems to me, and the reason I feel we need to 
move in all the States is, why should a person in one State 
have a greater chance of losing her husband, I use that as an 
example, than a person in another State, when we are one Nation 
under God? So I am glad you are open to working with us.
    Let me ask Ms. Mooney is she knows that figure; how many of 
these are repeat drunk drivers?
    Ms. Dean-Mooney. Well, the Insurance Institute for Highway 
Safety says only one-third are repeat offenders. We know from 
the data that people generally drive up to 87 times before they 
were ever caught and convicted the first time. In my particular 
case the man that killed Mike had no prior convictions, but you 
don't learn to drive at a .34 blood alcohol concentration the 
first time out. He had done so hundreds of times before and had 
simply never been caught.
    Senator Boxer. So you don't have the number of how many of 
these--one-third of the fatalities are related to drunk 
driving, but we don't have the numbers, none of us do, on how 
many of those were repeat offenders, in other words had been 
caught before. You don't have that information.
    Ms. Dean-Mooney. That is about one-third of the crashes.
    Senator Boxer. A third of a third.
    Ms. Dean-Mooney. Yes, one-third of 11,000 are caused by 
repeat offenders. Two-thirds are caused by first time 
offenders.
    Senator Boxer. OK. I got you now. Thank you. Thank you.
    I want to pursue with you, Ms. Mooney, the idea that you 
came up with that you have talked about, your organization. And 
I remember when your organization was born because it was born 
in my State.
    Ms. Dean-Mooney. Yes, it was.
    Senator Boxer. And I well remember because it was a long 
time ago. What year was it?
    Ms. Dean-Mooney. It was 30 years ago this September.
    Senator Boxer. As I remember, what was her name, the 
founder?
    Ms. Dean-Mooney. Candace Lightner.
    Senator Boxer. I can never forget her because she was 
extraordinary and came to me early on.
    So if we are looking at technologies, we already have this 
technology that would lock up the engine if the breathalyzer 
test fails. Is that right?
    Ms. Dean-Mooney. For convicted offenders, yes.
    Senator Boxer. For convicted offenders. And could you 
repeat again how many States have that law?
    Ms. Dean-Mooney. Ten States mandate it. Two States highly 
incentivize it. That is, they encourage you to get it if you 
are caught driving after you are convicted, and you do not have 
an ignition interlock, it is then a felony. And California, as 
I said, has a pilot program, four counties covering 14 million 
people. Hopefully, California will then turn that into an all-
offender law for the State.
    Senator Boxer. Yes, yes. All right.
    Where is Kirk? OK. SAFETEA-LU funded the Highway Safety 
Improvement Program at $1 billion a year. How do you compare 
the need today? Do you think that is about enough? Or do you 
think we need to do better? What is your feeling?
    Mr. Steudle. Well, first of all as a safety advocate I 
would say that the best use of our funds is toward safety 
improvements. So if there is more money in the overall pot and 
more can go to safety, we certainly support that.
    I think that the bigger context is the size of the whole 
program. If it is smaller and smaller then as you start slicing 
it all up it becomes more difficult because everything is all 
pegged in little spots. If it is a larger program we think it 
should expand with the size of all the rest of the core 
programs as well.
    Senator Boxer. OK.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    While you have the floor, let me ask you a question. I 
think from your testimony you agree pretty much with AASHTO's 
position, and I do, too, in terms of the States, giving the 
States the leeway to set the exact performance standards. There 
are some, Chairman Oberstar and others, who disagree with us in 
this case. Could you describe why you think that approach is 
better than the other approach?
    Mr. Steudle. I think there are a couple of things. You talk 
about performance management in general, and this really holds 
true for whatever type of management measure you are trying to 
put in place. You need to start with a high level goal. What 
are you trying to accomplish? And then allow the States the 
flexibility under that to develop those programs, to get to the 
national goal. And this last piece about incentivize, I think 
it is the old carrot and the stick issue. We feel that you can 
get a lot further with carrots as opposed to sticks.
    Now, one of the I think primary examples of how has worked 
has been in the safety plans. It was mandated that everybody 
have a highway safety plan. All 50 States went about developing 
those in collaboration with all of the rest of their partners 
in the States. And from a high level what we have seen is the 
traffic fatalities are dropping.
    Now, each State is different because the characteristics of 
that State are different. If there are more rural accidents, 
then that safety plan is geared toward rural. If there are more 
pedestrian accidents, then the highway safety plan is geared 
more toward pedestrian accident reduction. If there are more 
motorcycles, then it is geared toward that.
    So it is really State specific, but it is data driven. I 
think that is the key piece is it has got to be based on the 
data that you have.
    Senator Inhofe. And you think that the data is probably 
more accurate if you are taking the position of the States 
having that influence.
    Dr. Miller, I listened to the testimony, and certainly, Ms. 
Mooney, yours is very persuasive. All of them are. Traffic 
deaths are traffic deaths regardless of how they occur.
    Dr. Miller, I wonder sometimes if the, I was just looking 
at this chart here, which is yours. It was in your written 
testimony. And it talks about the road related deaths as 
opposed to DWI, speeding, seat belt use and all of that. Do you 
think that the safety benefits of road improvements are 
sometimes overlooked in development of these programs?
    Mr. Miller. I think that we have not paid attention to them 
in a long time. There is a lot of overlap here. I mean there 
are crashes in here where belt non-use, speeding, alcohol and 
road related conditions were all a factor in a single crash, so 
they are in all the bars.
    Senator Inhofe. Yes, yes.
    Mr. Miller. But I think that we haven't paid enough 
attention. And there are three real killers out there, which 
are medium and large non-breakaway poles, large trees, and 
bridges. Those three items are involved in 40 percent of the 
deaths and serious injuries in road crashes in this country. 
And non-breakaway polls are inexcusable at this point. We just 
need to focus more attention on fixing them.
    Senator Inhofe. OK.
    And Mr. Steudle, there won't be time to give an in-depth 
answer to this, but as we pursue, as move into hopefully sooner 
rather than later, the development of the next highway bill, I 
would like to have you right now give what specific 
improvements you think you would recommend for the HSIP 
Program. And then if you run out of time, do this for the 
record, because I would like to have some specific 
recommendations from you.
    Mr. Steudle. Certainly. I think in recognition of your time 
constraints as well, I think we outline a lot of that in the 
written testimony that I didn't talk about in the oral one, so 
I think I can provide all of that for you in a lot greater 
detail, specifically which pieces you ought to do.
    Senator Inhofe. All right. I think that is fair enough.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you.
    Before you start my time, I wanted to say something before 
Senator Inhofe leaves. He said traffic deaths are traffic 
deaths no matter how they occur. It is true at the end of the 
day, but I think if you look at, for example, a runaway Toyota 
vehicle, just to use an example, where a driver did everything 
right and look what happened? We had a highway patrolman and 
his family wiped out because of this, as opposed to a drunk 
driver, where if you have the technology, you possibly could 
have prevented it.
    So I would just urge you to think about it because some of 
them are more preventable than others. You are never going to 
stop everything.
    Senator Inhofe. No, I don't disagree with that, Madam 
Chairman.
    Senator Boxer. Yes, so I wanted to make that point.
    Senator Inhofe. Good.
    Senator Boxer. OK.
    Before I call on Senator Udall, I am going to take my last 
round of questions, and then, Senator, I will give you time for 
your opening statement, plus questions, so you will get 10 
minutes. You don't have to rush.
    I want to talk to Deb Hubsmith a minute, and I just want to 
thank you so much. I think you are making an excellent point, 
which a lot of us haven't thought about, which is 
transportation is how you get from one place to another. And a 
lot more people are walking, for reasons you discuss. Maybe is 
it on the advice of their physician to do it, or they feel 
better about it, or they can't afford an automobile, or they 
get on a bike for the same reason. It is a good news story, but 
also does create these challenges for us in terms of how to 
make sure that they are safe.
    And now I have four grandkids; when I was a young mom and I 
was always so nervous about my kids walking to school. They did 
have terrible accidents in our community, and they built an 
overpass because we lost a couple of kids. So clearly, there 
are ways that we can make improvements.
    What role do you think the Federal Government can or should 
play to encourage safer streets? Because a lot of colleagues 
will say, well, that is just beyond our jurisdiction. I assume 
you feel the Federal Government should be more involved. What 
is your rationale for that?
    Ms. Hubsmith. Thank you very much. That is an excellent 
question. As I mention in my testimony 13 percent of fatalities 
in America are pedestrians and bicyclists. So the Federal 
Government absolutely should have a role, and these modes of 
transportation now represent 12 percent of trips, which 
increased 25 percent over the last 7 years.
    We believe that the Federal Government should increase 
funding for programs. In your Committee Senate Bill 1156 would 
increase funding for Safe Routes to School by threefold over 
the fiscal year 2009 levels. Currently four times the amount of 
money is requested in States than money that is available. And 
so we are turning folks down from being able to improve 
opportunities for safety to build bicycle and pedestrian 
bridges and sidewalks and pathways and bike lanes.
    We also recommend that the Committee include the provisions 
from the Complete Streets bill, Senate Bill 584, in the 
transportation bill, because it is actually more cost effective 
to design our roads for the safety of all transportation users. 
When new roads are being built or when roads are being 
retrofitted, if we can add in the bike lanes, the sidewalks and 
the crosswalks at the same time we are going to improve safety 
for everyone. In fact, traffic crashes, 40 percent of them when 
pedestrians were crossing the street happen when there was not 
a designated crosswalk. So the more that we can create those 
types of provisions from the start, that would be important.
    Finally, in addition to those provisions and increased 
money for transportation enhancements and active transportation 
networks we feel that there should be mode specific and 
geographic specific goals for the Highway Safety Program. Right 
now there is a strategic highway safety plan, but we think that 
they should say that in rural areas, you should have this goal; 
in urban areas and suburban areas and for these specific modes 
there should be specific goals. Right now that doesn't exist. 
And so that is why bicyclists and pedestrians only get 0.6 
percent of the funding.
    Senator Boxer. Well, thank you very much for that very 
convincing statement.
    Mr. Miller, I don't think you mentioned the word speed, did 
you, when you spoke. Because as I look at things generally the 
speed of the driver is a factor in a lot of these fatalities. 
So I wanted to ask you, there is no question if you have a big 
tree, and it is a hazard, and it is overgrown, and it is a 
danger, and you can't see the road, that ought to be trimmed. 
And clearly you are right that is obvious. But how much of a 
role does speeding play in this?
    Mr. Miller. Speeding is about 20 to 25 percent of all crash 
costs. It is $97 billion a year. And frankly I think that the 
thing that we need to remember also is to say, what is the 
balance? How much safety goes in the overall bill? Is it better 
to be stuck in traffic than dead?
    Senator Boxer. Are you asking me?
    Mr. Miller. No, I am telling you. I think it is better to 
be stuck in traffic than dead, and I think that has to 
influence the balance.
    Senator Boxer. That is an obvious point, but--so you did 
answer me: 25 percent of all crashes involve speeding.
    Mr. Miller. Yes, of all crash costs, about 25 percent.
    Senator Boxer. Of all crash costs. And in fatalities, do 
you happen to know? You have all these things at the tip of 
your tongue. You are just a terrific witness. Do you know off 
the tip of your tongue how much speeding is involved in the 
fatal crashes?
    Mr. Miller. I could work that up, but I don't have it in my 
head.
    Senator Boxer. Would you do that for me and get that to me?
    Well, OK.
    Ms. Gillan. Senator Boxer.
    Senator Boxer. Yes.
    Ms. Gillan. I just wanted to add that according to NHTSA 
about 30 percent of all fatalities are the result of speeding.
    Senator Boxer. Thirty percent, so you disagree with Mr.--
oh, 30 percent of all fatalities. You have the answer for me.
    Ms. Gillan. That is right. And I can submit the NHTSA 
document to the record for you.
    Senator Boxer. Well, that would be very, very helpful 
because we really didn't talk about it today, but it seems to 
me that even if the road is in a horrible condition, which too 
many of our roads are, and even if there are obstructions, the 
faster you go, obviously, the more dangerous. And put drunk 
driving in that; I don't even know what the overlap is with 
speeding and drunk driving. You know, it is hard to separate. 
Is that separated out from the drunk driving? Do you know?
    Ms. Gillan. Well, sometimes speeding and drinking combined 
are a factor.
    Senator Boxer. I would think so. OK.
    Ms. Gillan. So it is hard, but according to NHTSA, it is 
about one-third of the fatalities.
    Senator Boxer. Very good.
    Ms. Gillan. And I also just wanted to point out one thing.
    Senator Boxer. Yes, go ahead.
    Ms. Gillan. To the pedestrian issue, is that we are 
testifying today in support of putting a freeze, a time out on 
truck size and weights.
    Senator Boxer. Yes.
    Ms. Gillan. And we have over 80 groups that support that 
bill that Senator Lautenberg has introduced and that you are a 
cosponsor. We really appreciate that. But bigger trucks are 
also a threat to pedestrians and bicyclists, and there have 
been some horrific deaths and injuries because of the fact that 
bigger trucks are more difficult to maneuver on roads, and they 
don't see pedestrians. They don't see bicyclists.
    And this is a real problem when we are putting together a 
multi-modal transportation system that everybody can use. We 
can't let large trucks dominate our transportation system.
    Senator Boxer. Well, the larger the truck, obviously, it is 
a threat to every car on the road as well, if there is an 
impact.
    Ms. Gillan. Right. Exactly. Thank you.
    Senator Boxer. Thank you so much for that.
    Senator Udall.
    By the way, I just have to ask unanimous consent to insert 
in the record testimony from the American Road and 
Transportation Builders and the Associated General Contractors.
    And without objection, we will do that.
    The floor is yours, Senator Udall.
    [The referenced testimonies follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Udall. Thank you, Madam Chair, and thank you for 
all your hard work on this issue.
    Just to follow up on the question, I would ask that my 
statement be put in the record. I will spend my time doing 
questions.
    Senator Boxer. Yes, please.
    Senator Udall. On the large trucks, what is your 
recommendation we do about the trucks in order to make it more 
friendly for everybody else out there on the road?
    Ms. Gillan. Well, one of the most successful truck safety 
bills that was passed was in 1991. Senator Lautenberg was 
behind that as sponsor as well as Senator Moynihan and Chairman 
John Chafee. This was the issue of dealing with large double 
and triple trailer trucks that were allowed in some States but 
not in others, but they wanted to spread the use of those 
trucks.
    Congress in that legislation passed what we called the 
``freeze'' where States that had allowed the triples could keep 
them, but States that didn't have them could not have them. 
That law worked tremendously, and this is what we are proposing 
on truck size and weights now because we see States ratcheting 
up the weights, and then the trucking industry is coming to 
Congress saying, we can't have this patchwork quilt, and we 
really need to increase truck weights to 97,000 and 100,000 
pounds. The problem is trucks that large are incredibly 
dangerous and destructive.
    And so the legislation that Senator Lautenberg has 
sponsored is what I call a time out. States can keep what they 
have, but we are not going to ratchet it up any further, and we 
are going to keep interstate truck weights at 80,000 pounds. 
That not only will help safety but it also is going to help 
preserve our infrastructure. The biggest cause of damage to 
bridges are large overweight trucks.
    And as we are looking at scarce resources and trying to 
create a balanced freight network that relies on rail and other 
modes we really need to look at whether, in fact, it is in our 
best interests both from safety and investment to allow trucks 
to get bigger.
    That is why safety groups and truck drivers themselves, the 
independent operators and the Teamsters, environmental groups 
and bicycling groups are all supporting this legislation.
    Senator Udall. Great. Well, thank you for that description. 
I am a cosponsor of that legislation. I think it is needed, and 
I hope that we can move on that at some point.
    I wanted to focus a couple of my questions here on drunk 
driving and requiring ignition interlocks. And probably other 
panelist members, but I wanted to focus on Laura Dean-Mooney, 
but others may have comments.
    In 2004 New Mexico adopted the first ignition interlock for 
all convicted drunk drivers. At the time of the adoption New 
Mexico led the Nation in alcohol related fatalities, so we were 
No. 1 in what is a horrible category to be No. 1 in. Ignition 
interlocks were a key component of a broad strategy that also 
included increased enforcement and an awareness campaign that 
resulted in a 35 percent decrease in alcohol impaired traffic 
fatalities.
    And one of the things I wanted to show you is the dramatic 
drop that occurred. You can see here on this chart how we have 
gone down, and New Mexico is making progress in terms of drunk 
drivers. But the dramatic drop from 2004 to 2008, where you 
have the 219 here and the 143, a lot that, I think, can be 
attributed to ignition interlocks. Currently, over 8,000 New 
Mexicans have ignition interlocks, and New Mexico leads the 
Nation in ignition interlocks per capita.
    Based on the raw data, ignition interlocks prevented over 
63,000 alcohol related automobile trips in the State. And 
although the evidence is clear that ignition interlocks work, 
not all States have adopted them for all convicted first time 
offenders.
    What do you think will be required for more broad adoption 
by States of ignition interlocks as a tool to combat drunk 
driving? And other panelists may want to weigh on that, too, 
but let's start with you.
    Ms. Dean-Mooney. Well, thank you, Senator Udall, certainly 
for your support.
    You hit the nail on the head, and the chart clearly 
illustrates that interlocks do work. But what is needed is a 
sanction because we have hit the wall in a number of States in 
opposition, including, I mentioned in my testimony, the State 
of Maryland where the Chairman of the Judiciary is a DUI 
defense attorney. He would not even allow the bill to be heard. 
He was asked by a MADD volunteer if he was taking that stance 
based on being a DUI defense attorney or as Chairman. He 
indicated that he was taking that stance as a DUI defense 
attorney. Maryland is not the only State. We have run into this 
in other States across the country.
    So the sanction is needed to ultimately get the States to 
adopt the all-offender ignition interlock legislation so that 
other States can have similar successes as New Mexico clearly 
has shown.
    Senator Udall. Thank you.
    Deb Hubsmith, focusing on bicycle and pedestrian safety, I 
met with the New Mexico Bike Coalition during Bike Week. And 
during their visit they expressed their interest in improving 
the conditions for New Mexico bicyclists.
    Unfortunately DOTs are constantly struggling to meet the 
capacity and maintenance needs of the roadways and as you 
mentioned in your testimony often don't provide adequate 
attention to the needs of the users other than vehicles. Do you 
have recommendations for low cost improvements that would be 
easily implemented and improve the conditions for pedestrians 
and bicyclists?
    Ms. Hubsmith. Thank you very much for that question. I 
would say that if the Federal Government adopts a Complete 
Streets policy, which would be Senate Bill 584, that that would 
go a long way toward improving conditions for bicyclists and 
pedestrians because then every road as it is being maintained 
would need to consider the needs of bicyclists, pedestrians, 
transit users and motorists. And this has shown to be very cost 
effective.
    In addition to increasing the size of the different funding 
sources that I mentioned with regards to Senator Boxer's 
question I would also remark that things like lighting on 
roadways, crosswalks, bike lanes, those are all very low cost 
solutions that basically involve signage, lights or paint. And 
very low cost solutions can lead to a high benefit in terms of 
reducing injuries and fatalities.
    Also speed limits are extremely important. A car traveling 
at 40 miles per hour, if you are hit as a bicyclist or 
pedestrian, you only have a 15 percent chance of surviving. If 
it is only going 30 miles per hour, you have a 50 percent 
chance of surviving. So if we can reduce speed limits that is 
also going to improve safety.
    Senator Udall. Focusing now a little bit on the bicycle 
driver culture, in an effort to reduce our Senate office's 
carbon footprint several of my staff bike to work. And they 
often comment about the need for a culture change where drivers 
are aware of bicyclists on the road and accept them as full 
users. I have heard that this sort of culture change has 
occurred in metro areas that have a larger proportion of 
bicyclists and that their roads are safer for all users as a 
result.
    Do you have recommendations for infrastructure improvements 
or awareness campaigns that would improve driver awareness of 
bicycles on the road?
    Ms. Hubsmith. Thank you, that is a very important question. 
I would say that starting with school children is one way to 
really create more of a cultural shift in the acceptance of 
people walking and bicycling. Many people remember walking or 
bicycling to school when they were young and feel that their 
children or grandchildren should have the opportunity to do 
that today. So expanding the Safe Routes to School Program, 
like Senate bill 1156, which is bipartisan and has 22 
cosponsors, will be a great way to try to begin to make it more 
of a part of our culture.
    The kinds of facilities that will really help to improve 
safety of our roadways includes sidewalks, crosswalks, bike 
lanes, pathways, and improvements to intersections because many 
intersections are where things are most dangerous.
    In rural areas, being able to have wider shoulders, being 
able to have crosswalks, and also improving things like routes 
to bus stops would make for better improvements.
    And then finally when elected officials like you walk or 
bike to school with kids or take place in events that show that 
this is a legitimate form of transportation that is on the 
increase, that improves public health and helps to improve 
safety, that also helps to raise the priority.
    And if we could work with the National Highway Traffic 
Safety Administration, if we could work with the movie industry 
and all kinds of groups in order to elevate the status of 
walking and bicycling and show how it is a healthy alternative 
for America, that would make for big improvements.
    Senator Udall. Thank you.
    Back to Laura, do you have any comments about the ROADS 
SAFE, the DWI bill that I am the author of? Just briefly here. 
We only have a few seconds.
    Ms. Dean-Mooney. Yes, I do.
    Senator Udall. OK, go ahead please.
    Ms. Dean-Mooney. First, thank you again for your 
sponsorship of that bill. We believe that ROADS SAFE is the 
answer to ultimately eliminating drunk driving. The development 
of technology is progressing rapidly, and we know that already 
cars can park themselves. They can do a number of things, 
including lane departure warnings.
    So the idea that advanced technology in a car that would 
set at .08. It wouldn't hassle a sober driver. It would be 
unobtrusive to those of us who choose to drive sober, would be 
the ultimate solution to eliminating drunk driving.
    Senator Udall. Thank you.
    And thank you for your courtesies, Madam Chair, appreciate 
it.
    Thank you to the panel, very good panel today.
    [The prepared statement of Senator Udall follows:]

                     Statement of Hon. Tom Udall, 
               U.S. Senator from the State of New Mexico

    Madam Chairman, thank you for holding this hearing on 
transportation safety. It is a critical issue for us to address 
as we work through the reauthorization process.
    I would like to welcome MADD President Laura Dean-Mooney 
and Jackie Gillan from the Advocates for Highway and Auto 
Safety. Jackie and I previously worked together to improve 
transportation safety and prevent drunk driving when I was the 
New Mexico Attorney General. I want to thank you, Jackie, for 
your dedication to these important public safety issues.
    Each day we use the transportation system to get to work, 
school, shopping and play. Many of us drive. Others take the 
bus. Some of us bike or walk to our destination. Whichever 
method of transport you use, the unfortunate reality is that 
our transportation system is often far from safe. While 
fatalities have been declining each year, nearly 34,000 people 
lost their lives on America's roads last year--victims of drunk 
driving crashes or inattentive drivers or being hit by a 
vehicle while on foot or riding a bike.
    While these crashes might not all have been preventable, 
many could have been less severe.
    Since I was first elected Attorney General of New Mexico 
almost 20 years ago and during my subsequent years in the House 
and now the Senate I have made improving road safety a top 
priority. One way I've done that is by focusing on the scourge 
of drunk driving in New Mexico and across the country.
    As is often the case a tragic drunk driving crash prompted 
New Mexico to take action back in 1992. That was when a drunk 
driver killed a mother and her three girls on Christmas Eve. 
The drunk driver was speeding at 90 miles an hour, going the 
wrong way down the highway. This crash helped changed attitudes 
in my State--but it should not take a tragedy for us to do more 
to prevent drunk driving.
    In 2008 drunk driving killed nearly 12,000 Americans, 
including 143 people in my home State of New Mexico. That is an 
average of 32 people killed every day by drunk driving. This 
unacceptable death toll is all the more shocking when you 
consider that each one of those deaths was preventable.
    The United States has already made significant progress in 
combating drunk driving. Compared to 20 years ago our roads are 
much safer today. Yet even as the overall number of people 
killed on our roadways has declined, drunk driving still 
accounts for one-third of all traffic fatalities.
    It is even more worrisome that a drunk driver has just a 2 
percent chance of being caught. In fact one study found that a 
first time drunk driving offender has on average driven drunk 
87 times before being arrested. That is why I introduced last 
month, along with Senator Corker of Tennessee, the bipartisan 
ROADS SAFE Act. This legislation is cosponsored by Senators 
Klobuchar and Begich and would authorize increased funding to 
explore new in-vehicle technologies to prevent drunk driving. 
These new technologies would go beyond ignition interlocks, 
which are only installed in a vehicle after a driver is 
convicted of drunk driving, by preventing any vehicle from 
being operated by a driver with a blood alcohol content in 
excess of 0.08.
    We can't develop this technology fast enough. Every day 
dozens of people die needlessly on America's roads because of 
drunk driving. If this technology were available today, it 
would have prevented the recent deaths of five people in New 
Mexico who died as the result of drunk drivers who avoided 
detection by an interlock.
    In addition to combating drunk driving it is critically 
important that our communities provide individuals with safe 
means of travel that do not include a vehicle. The average U.S. 
trip is less than 2 miles. And yet only 12 percent of trips are 
made by bike or foot. Unfortunately this may be due to the 
increased risk of fatality when not in a vehicle. Studies have 
shown that on a per mile basis walking is 10 times more 
dangerous than driving. Just last month a bicyclist was killed 
in Albuquerque when a driver lost control of her vehicle and 
left the road, ultimately stopping on a separated multi-use 
trail. This needs to change.
    Madam Chairwoman, we've got a lot of work ahead of us. 
Whether it's fighting drunk driving or improving the safety of 
bikers and pedestrians or any of the other safety concerns 
highlighted today, I'm confident that working together we will 
develop solutions that improve the safety and account for the 
needs of all who travel America's roads.

    Senator Boxer. Well, Senator, I just want to thank you for 
your leadership on these safety questions. We will have a bill 
that has about 10 titles, one of which will be safety, and we 
are going to work with you, Senator, on putting in a lot of 
these legislative efforts of our colleagues into the MAP-21.
    I just want to say this is really the last of our series of 
hearings, right? And now what we are going to do is start 
meeting with colleagues one on one, Senator Udall, to get this 
bill together and to begin marking it up. So it has been 
terrific.
    And you were a wonderful panel, all of you. I mean, I 
really, really thank you. You are knowledgeable, and you have 
firm convictions on the subject and just have a lot of 
credibility with me and I know with everyone who was here. And 
we will be calling upon you as we put together the bill to see 
whether or not, for example, Mr. Cohen, if you can support us 
in our efforts by maybe moving past your usual stance on this, 
and we got a signal that you might be willing to. So we take 
that seriously.
    So thank you to everybody, and we stand adjourned, and the 
next time we take up the subject, it will be to actually take a 
look at the bill.
    Thank you.
    [Whereupon, at 11:35 a.m. the Committee was adjourned.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Chairman Boxer, thank you for holding this hearing.
    To begin, let me say that I strongly believe in the 
importance of having clear, firm goals that will guide our 
Nation's transportation policy. Improving safety ought to be 
one of those goals.
    We need increased motorist safety, and we also need 
improved pedestrian and bike safety. In fact, for several years 
now Senator Harkin and I have been working hard to pass 
Complete Streets legislation to address this very issue.
    Senator Harkin and I believe that roads and highways that 
receive Federal funding should take into account the needs of 
all road users--not just motorists.
    We want to allow people to get out of their cars, trucks 
and vans by providing them with increased mobility. We want 
them to be able to ride their bikes to work or walk to school. 
The way to do that is to build complete streets and make roads 
safer for cyclists and pedestrians.
    Unfortunately, in 2008, while bicycle trips made up less 
than 1 percent of all trips American took, they accounted for a 
little less than 2 percent of all traffic deaths. Pedestrians, 
meanwhile, accounted for 9 percent of U.S. trips but 12 percent 
of traffic fatalities.
    This is not acceptable. And I'm glad we're here today to 
talk about how to make our streets safe not just for motorists 
but for bicyclists and pedestrians as well.
    All told, Americans spend nearly 3 trillion hours on the 
road per day. Clearly it is worth the investment to design 
smart, multi-faceted transportation systems that will keep 
Americans safe and keep them healthy at the same time.
    Transportation safety is undeniably one of the most 
critical issues this Committee will consider as we put together 
a transportation bill. I look forward to working with Chairman 
Boxer on this and many other issues as we move forward with 
this task.
    I'd like to conclude my remarks by thanking our witnesses 
for joining us today.
    I yield back the balance of my time and thank the Chair.

                                 <all>
</pre></body></html>
